No. 19-13
In the Supreme Court of the United
__________________
STATE OF TENNESSEE,
v.

States

Petitioner,

TAMARIN LINDENBERG, Individually and as Natural
Guardian of Her Minor Children ZTL and SML,
Respondent.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit

__________________

REPLY BRIEF OF PETITIONER
__________________
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE S. BLUMSTEIN
Solicitor General

SARAH K. CAMPBELL
Associate Solicitor General
JONATHAN DAVID SHAUB
Assistant Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 253-5642
jonathan.shaub@ag.tn.gov
Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
REPLY BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

The Decision Below Is an Affront to
Federalism . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

The Decision Below Has Enormous
Significance . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

III.

Federal Courts Lack Meaningful Standards
To Guide Certification Decisions . . . . . . . . . 10

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
CASES
Albemarle Paper Co. v. Moody,
422 U.S. 405 (1975). . . . . . . . . . . . . . . . . . . . 11, 12
Arizonans for Official English v. Arizona,
520 U.S. 43 (1997). . . . . . . . . . . . . . . . . . . . . . . . . 2
Atheists of Fla., Inc. v. City of Lakeland,
713 F.3d 577 (11th Cir. 2013). . . . . . . . . . . . . . . . 5
Blue Cross & Blue Shield of Ala., Inc. v. Nielsen,
116 F.3d 1406 (11th Cir. 1997). . . . . . . . . . . 4, 5, 8
Cooter & Gell v. Hartmax Corp.,
496 U.S. 384 (1990). . . . . . . . . . . . . . . . . . . . . . . 11
Freeman v. City of Mobile,
146 F.3d 1292 (11th Cir. 1998). . . . . . . . . . . . . . . 4
Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947). . . . . . . . . . . . . . . . . . . . . . . 12
Hanna v. Plummer,
380 U.S. 460 (1965). . . . . . . . . . . . . . . . . . . . . . . . 3
Hughes v. Tobacco Inst., Inc.,
278 F.3d 417 (5th Cir. 2001). . . . . . . . . . . . . . . . . 9
LeFrere v. Quezada,
582 F.3d 1260 (11th Cir. 2009). . . . . . . . . . . . . . . 4
Lehman Bros. v. Schein,
416 U.S. 386 (1974). . . . . . . . . . . . . . . . . . . . . . . 10
Martin v. Franklin Capital Corp.,
546 U.S. 132 (2005). . . . . . . . . . . . . . . . . . . . 11, 12

iii
New York v. United States,
505 U.S. 144 (1992). . . . . . . . . . . . . . . . . . . . . . . . 3
Perry v. Schwarzenegger,
628 F.3d 1191 (9th Cir. 2011). . . . . . . . . . . . . . . . 8
Rutherford v. Columbia Gas,
575 F.3d 616 (6th Cir. 2009). . . . . . . . . . . . . . . . . 9
Sultenfuss v. Snow,
35 F.3d 1494 (11th Cir. 1994). . . . . . . . . . . . . . . . 5
Tunick v. Safir,
209 F.3d 67 (2d Cir. 2000) . . . . . . . . . . . . . . . . . . 8
United States v. Burr,
25 F. Cas. 30 (CC Va. 1807) . . . . . . . . . . . . . . . . 11
Western Pac. R. Corp. v. Western Pac. R. Co.,
345 U.S. 247 (1953). . . . . . . . . . . . . . . . . . . . . . . 12
OTHER AUTHORITIES
Bryan Garner, Neil M. Gorsuch, Brett M.
Kavanaugh, et al., The Law of Judicial
Precedent (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Oral Argument, Lindenberg v. Jackson Nat’l Life
Ins. Co., 912 F.3d 348 (6th Cir. 2018) (Nos. 176034, 17-6079), http://tinyurl.com/y59uqvnl . . . . 2
17A Charles Alan Wright et al., Federal Practice &
Procedure (3d ed. 2019) . . . . . . . . . . . . . . . . . . . . 6

1
REPLY BRIEF
The court of appeals declared a Tennessee state
statute unconstitutional as a matter of first impression
under the Tennessee Constitution. It did so despite the
fact that the Tennessee Attorney General requested
that the federal court certify the novel state
constitutional questions to the Tennessee Supreme
Court. And it did so despite the fact that the Tennessee
Supreme Court itself invited the Sixth Circuit to certify
to it the dispositive state law questions in the case.
Respondent cannot identify any other circuit that
would treat a State’s sovereign interests so cavalierly.
Nor can respondent cite any other case in which a
federal court has struck down a state law on state
constitutional grounds without first seeking input from
the State’s highest court.
Because this Court has never established standards
for certification, the court of appeals was free to ignore
the significant federalism interests presented by this
case. The panel’s refusal to certify—indeed to even
address the issue despite Judge Larsen’s dissent urging
certification—contravenes basic principles of our dual
judicial system. It illustrates the lack of—and the need
for—“concrete rules to govern lower federal courts in
deciding whether to certify questions.” Pet. App. 182a
(Bush, J., dissenting from denial of rehearing en banc).
Respondent counters that the decision below
represents an exercise of discretion and thus does not
warrant review. All parties agree that certification
should be discretionary. But that discretion can be
abused. As the court of appeals’ dismissive approach to
certification below evidences, the danger of abuse is

2
much higher when there are no standards to guide its
exercise. This Court’s guidance on certification is past
due. And this is “the ideal case in which to begin
delineating those standards.” Pet. App. 182a (Bush, J.,
dissenting from denial of rehearing en banc).
One of those standards is relatively uncontroversial.
A federal court should not hold a state statute
unconstitutional under a novel theory of state
constitutional law without first seeking input from the
State’s highest court. Or, as a leading treatise puts it,
only in “exceptional circumstances” should “[a] federal
court . . . adjudge a state statute as consistent with or
conflicting with the state constitution if the state courts
have not addressed the statute’s validity.” Bryan
Garner, Neil M. Gorsuch, Brett M. Kavanaugh, et al.,
The Law of Judicial Precedent § 78, p. 673 (2016). A
federal court certainly should not take it upon itself to
wade through a “morass of historical stuff,” and decide
an important state constitutional issue of first
impression when the State—in the form of both the
Attorney General and the Supreme Court—has
requested and invited certification. Oral Argument at
43:15-44:10, Lindenberg v. Jackson Nat’l Life Ins. Co.,
912 F.3d 348 (6th Cir. 2018) (Nos. 17-6034, 17-6079),
http://tinyurl.com/y59uqvnl. But the court of appeals
was not deterred from doing just that.
Certiorari is warranted to provide federal courts
guidance on this important issue and ensure that,
going forward, state sovereign interests are afforded
more “respectful consideration than they received in
the proceedings below.” Arizonans for Official English
v. Arizona, 520 U.S. 43, 78 (1997).

3
I.

The Decision Below Is an Affront to
Federalism.

Respondent—incorrectly—dismisses the decision
below as a “case-specific decision” with only minor
implications for federalism and few consequences
beyond this case. BIO 8. The decision below, if allowed
to stand, establishes a precedent that poses a
significant threat to the sovereign interests of States in
interpreting their own statutory and constitutional
law.
Moreover, the decision below undermines
federalism by creating two competing—and potentially
contradictory— sources of state constitutional law,
impairing the “twin aims of the Erie rule” to prevent
forum-shopping and avoid the “inequitable
administration of the laws.” Hanna v. Plummer,
380 U.S. 460, 468 (1965); see also State Pet. 35-37.
The Sixth Circuit’s approach to certification, which
conflicts with the approaches taken by other circuits, is
neither “unremarkable” nor “inevitable” as respondent
suggests. BIO 16. It reflects a judgment about a
“constitutional question” as “old as the Constitution”
itself: “the proper division of authority between the
Federal Government and the States.” New York v.
United States, 505 U.S. 144, 149 (1992). And it reflects
the wrong judgment.
The question of whether and in what circumstances
a federal court should certify a state constitutional
issue to the State’s highest court is vitally important.
See State Pet. 27-35. Other circuits have recognized
the gravity of such decisions and have adopted
standards that expressly take the State’s sovereign
interests into account. See State Pet. 15-24; Jackson

4
Nat. Pet. 21. The Sixth Circuit has not, nor has this
Court ever provided guidance instructing lower courts
to consider these important sovereign interests.
Respondent suggests that the conflicting standards
adopted by the circuits merely represent fact-specific
decisions limited to the circumstances of each
particular case. BIO 14-15.1 But the language chosen
by those courts is unmistakably broader. The Eleventh
Circuit, for example, has been unequivocal that state
constitutional issues relate closely “to the heart of a
state’s self-government” and that “[f]ederalism and
comity require” federal courts not “to hold that a state
statute violates the state constitution, except as a
matter of last resort.” Blue Cross & Blue Shield of
Ala., Inc. v. Nielsen, 116 F.3d 1406, 1413 (11th Cir.
1997) (emphasis added). And the Eleventh Circuit has
applied that precedent to certify state law questions in
later cases. See LeFrere v. Quezada, 582 F.3d 1260,
1268 (11th Cir. 2009); see also Freeman v. City of
Mobile, 146 F.3d 1292, 1299 & n.5 (11th Cir. 1998)
(certifying two questions of Alabama law rather than

1

Respondent relies largely on cases in which federal courts have
resolved state-law questions, including constitutional questions, on
the basis of established state law or under a state constitutional
provision the State has interpreted as coextensive with a federal
constitutional provision. BIO 9-15. Respondent has not—and
cannot—cite a case in which a federal court has taken it upon itself
to declare a state statute unconstitutional under a novel
interpretation of the state constitution without any guidance from
the state appellate courts about the issue.

5
“publish[ing] an opinion and judgment that . . . could
interfere with Alabama’s constitutional system”).2
Respondent faults the State for asking for
certification in a footnote. BIO 16, 19. But the State’s
request was unambiguous. After noting that, at that
stage of the litigation, the constitutional issues were
not yet ripe and before defending the constitutionality
of the law on the merits, the State’s brief made clear
that certification was the appropriate course:
If [the constitutional questions become ripe],
this Court should certify the constitutional
questions to the Tennessee Supreme Court
pursuant to Tenn. Supp. Ct. R. 23. Both
questions address important matters of state
constitutional law.
Tenn. Br. at 8-9 & n.2, ECF No. 25.

2

Respondent claims the Eleventh Circuit has “addressed unsettled
state constitutional issues without certification.” BIO 15. But
respondent’s two cited cases provide no support for such a claim.
The first applied settled state constitutional law to a
straightforward issue and found no constitutional violation. See
Atheists of Fla., Inc. v. City of Lakeland, 713 F.3d 577, 596 (11th
Cir. 2013). The second did not involve a state constitutional
question at all; it was a due process challenge based solely on the
U.S. Constitution. See Sultenfuss v. Snow, 35 F.3d 1494, 1495,
1499 (11th Cir. 1994). Judge Carnes’s dissent in Sultenfuss noted
that a state constitutional issue “lurk[ed] in the shadows,” id. at
1506, but the approach to certification he advocated in dissent was
later adopted in his majority opinion in Nielsen, see 116 F.3d at
1413. That approach is directly contrary to the Sixth Circuit’s
approach below.

6
Moreover, respondent’s focus on the actions of the
State and other parties in the case is irrelevant. The
appropriate question is whether the court applied the
correct standard to determine whether to certify the
state-law questions in light of the State’s request and
its sovereign interest in interpreting its own laws and
Constitution. See 17A Charles Alan Wright et al.,
Federal Practice & Procedure § 4248 (3d ed. 2019)
(“Ordinarily a court will order certification on its own
motion.”).
Accordingly, respondent is incorrect in suggesting
that, if this Court granted certiorari, the “briefing
would not address state sovereign interests or the other
matters” on which the circuits disagree, and is equally
incorrect in claiming that “the Court would be required
to wade through the record to assess those case-specific
considerations” relating to the procedural history here.
BIO 17. The briefing would address the issues
squarely raised by the disagreement and
inconsistencies among the circuits—i.e., what
standards should federal courts apply when
considering certification of an important state
constitutional question of first impression as well as a
threshold question of state statutory law.
Indeed, the “case-specific” characteristics here make
this case more appropriate as a vehicle to address
certification. None of the “unique” circumstances
identified by respondent would prevent the Court from
articulating general principles to guide discretion in
future cases. To the contrary, they provide this Court
the opportunity to comment on the variety of different
factors that may be relevant to certification, including

7
(1) the presence of both state statutory and
constitutional questions; (2) the Tennessee Supreme
Court’s invitation to certify the state-law questions;
(3) the agreement of all parties that certification would
be appropriate; and (4) the existence of intermediateappellate-court authority on the statutory state-law
question. State Pet. 38-40.
Respondent raises mostly procedural arguments as
reason for this Court not to grant certiorari. But
respondent informed the court of appeals that
certification would be “reasonable” and that she had no
objection to certification. Oral Argument at 19:0019:12. Moreover, the court of appeals did not rely on
any of these procedural arguments in denying
certification. Accordingly, none of those considerations
would be relevant to this Court’s review of the court of
appeals’ exercise of its discretion in this case.
II.

The Decision
Significance.

Below

Has

Enormous

The question here is thus squarely one of federalism
and of the proper approach of a federal court confronted
with a novel state-law question. This Court has never
addressed that question, casting federal courts adrift to
answer it in whatever manner they wish—or to decline
to address it at all, as the court of appeals did below.
The presence of these fundamental issues of
federalism and comity between state and federal courts
belies respondent’s extraordinary claim that the State’s
interest in this case is limited to “the validity of a
single damages award in litigation between two private
parties.” BIO 22. The State’s interest in this case

8
could not be more profound or fundamental; it arises
out of Tennessee’s sovereign interest in its Constitution
and laws and the fact that a federal court took it upon
itself to declare a duly enacted state statute
unconstitutional solely on novel state constitutional
grounds without ever considering the State’s interest.
For that very reason—concern for state sovereignty in
this context—a number of other States have urged this
Court to provide guidance on these issues. Amicus Br.
of Ohio, et al. 4-12.
States have a vital interest in the standard federal
courts apply when deciding whether to certify state-law
questions. Some circuits strongly favor certification of
important, unsettled questions of state law. See
Tunick v. Safir, 209 F.3d 67, 76 (2d Cir. 2000)
(Calabresi, J.) (noting federal courts are “singularly
unsuited to answer” certain fundamental questions of
state law). And others hold certification of state
constitutional questions to be “imperative” or
“required.” Nielsen, 116 F.3d at 1413; Perry v.
Schwarzenegger, 628 F.3d 1191, 1198 (9th Cir. 2011).
The Sixth Circuit has chosen a different course; it
enforces no presumption against its courts resolving
fundamental state-law questions of first impression
and allows a panel or district court to take up a such
questions if it so chooses, no matter the State’s
interests.
Exercising that authority, the panel below declared
Tennessee’s punitive damages cap unconstitutional.
Respondent brazenly suggests that decision has no real
consequence beyond this case. BIO 21-22. But
precedent casts doubt on the accuracy of Judge

9
Nalbandian’s comment that a future panel or district
court could certify the precise issue decided below
consistent with its obligation to abide by the decision of
a previous panel. See Rutherford v. Columbia Gas, 575
F.3d 616, 619 (6th Cir. 2009); Hughes v. Tobacco Inst.,
Inc., 278 F.3d 417, 425 (5th Cir. 2001); Pet. App. 195a.
In any event, even if Judge Nalbandian were correct as
a theoretical matter, it strains credulity to suggest a
district court or subsequent panel, confronted with the
same state-law issues decided below, would be more
likely to certify the question than to follow the Sixth
Circuit’s existing, precedential decision.
Moreover, respondent provides no evidence to
support the rosy projection that this constitutional
issue “will inevitably arise in many cases” and that the
Tennessee Supreme Court will have “ample
opportunities” to correct the decision below if it so
chooses. BIO 22. Certainly, cases could arise in state
court that allow it to address the issue. But there are
a significant number of contingencies on which that
would depend, including (1) the lack of any basis for
federal jurisdiction, (2) a jury award of punitive
damages, (3) an award of punitive damages that is both
sufficiently large to implicate the cap and also upheld
by the judge, (4) no statutory bars to the recovery, and
(5) litigants willing to pursue the case as far as possible
rather than settle given the existing Sixth Circuit
precedent.
The party who would benefit from the Sixth
Circuit’s ruling would undoubtedly do everything
possible to prevent the issue from going to the state
court. In the meantime, until the opportunity to

10
address the issue presents itself, the governing
interpretation of the Tennessee Constitution’s
guarantee of a right to trial by jury—established by a
federal court—may be directly contrary to what the
Tennessee Supreme Court would have decided.
More fundamentally, the decision below establishes
precedent—apparently the first of its kind—that allows
a federal court to take it upon itself to declare a state
statute unconstitutional on state constitutional
grounds without allowing the state court to weigh in
and without explaining why certification would not be
a more appropriate course. The panel below did so
despite the fact that no party opposed certification and
the Tennessee Supreme Court had invited certification.
The State has a substantial interest in ensuring
that federal courts do not approach certification—
particularly of state constitutional questions—with
such indifference. Other States share that interest.
That interest—and the lack of any standards to protect
it—warrants this Court’s intervention.
III.

Federal Courts Lack Meaningful Standards
To Guide Certification Decisions.

Respondent contends that this Court’s review is not
warranted because “[a]ll circuits treat certification
decisions as case-specific exercises of discretion.”
BIO 9. But that argument misses the point. It is well
settled that the decision whether to certify a state-law
question lies within the “sound discretion” of the court.
Lehman Bros. v. Schein, 416 U.S. 386, 390-91 (1974).
Rather, the problem is disagreement among the courts

11
of appeals about the legal standard that should guide
that discretion.
Respondent urges that any differences in approach
among the lower courts should be chalked up to the
discretionary nature of the certification decision.
BIO 16. But the fact that a decision is discretionary
“does not mean that no legal standard governs [that]
discretion” or that varying approaches are tolerable.
Martin v. Franklin Capital Corp., 546 U.S. 132, 139
(2005); see also Albemarle Paper Co. v. Moody,
422 U.S. 405, 416 (1975). An exercise of discretion
requires the exercise of judgment, not whim, and
“‘judgment is to be guided by sound legal principles.’”
Martin, 546 U.S. at 139 (quoting United States v. Burr,
25 F. Cas. 30, 35 (CC Va. 1807) (Marshall, C.J.)). As
this Court has explained, “limiting discretion according
to legal standards helps promote the basic principle of
justice that like cases should be treated alike.” Id.3
The lower courts’ varying approaches are not, as
respondent suggests, merely the product of properly
exercised discretion. They are evidence that this Court
has not provided meaningful standards to guide and
inform the lower courts in the exercise of their
discretion. The upshot is that “like cases” are not being
3

Respondent contends, selectively quoting Cooter & Gell v.
Hartmax Corp., 496 U.S. 384, 405 (1990), that “‘some variation’ in
the application of discretionary standards is ‘inevitable.’” BIO 16.
What this Court actually said in Cooter & Gell, however, is that
“some variation in the application of a standard based on
reasonableness is inevitable.” 496 U.S. at 405 (emphasis added).
The variance in the standard itself is neither inevitable nor
desirable.

12
“treated alike,” in contravention of basic principles of
justice and federalism. Id.; see also Pet. App. 182a
(Bush, J., dissenting from denial of rehearing en banc).
This Court has granted review in other cases to
establish standards to guide discretionary decisions by
lower federal courts. See, e.g., Martin, 546 U.S. at 141
(articulating standards to guide discretionary award of
attorney fees); Albemarle Paper Co., 422 U.S. at 416
(articulating standards to guide discretionary award of
backpay); Western Pac. R. Corp. v. Western Pac. R. Co.,
345 U.S. 247, 260 (1953) (recognizing “certain
fundamental requirements” that “should be observed
by the Courts of Appeals” in exercising their
discretionary power to grant en banc review); Gulf Oil
Corp. v. Gilbert, 330 U.S. 501, 508-09 (1947)
(identifying factors to guide discretionary doctrine of
forum non conveniens).
The need for meaningful standards to guide and
limit discretion is especially compelling here, given the
important federalism and comity interests that
certification is intended to promote. This Court should
grant review to make clear that federal courts must
consider and give appropriate weight to those interests
as part of their discretionary certification decision.
“[R]esponsibility lies with this Court to define” the
appropriate standards and “insure their observance.”
Western Pac. R. Co., 345 U.S. at 260.

13
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDRÉE S. BLUMSTEIN
Solicitor General
SARAH K. CAMPBELL
Associate Solicitor General
JONATHAN DAVID SHAUB
Assistant Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 253-5642
jonathan.shaub@ag.tn.gov
Counsel for Petitioner

